A
ALLIANCE DEFENDING

FREEDOM
FOR FAITH FOR IUSTlCE

May 10, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NW
Washington, DC 20543-0001
RE:

No. 20-429, American Medical Association v. Cochran
No. 20-454, Cochran v. Mayor & City Council of Baltimore
No. 20-539, Oregon v. Cochran

Dear Mr. Harris:
On April 26, 2021, the Court ordered the Acting Solicitor General to file a letter
brief addressing whether the United States intends to enforce the 2019 Rules outside
of Maryland until the notice-and-comment process is complete and, if further
litigation is brought against the 2019 Rules outside of Maryland, how the government
intends to respond. Proposed intervenors the American Association of Pro-Life
Obstetricians & Gynecologists (AAPLOG), the Christian Medical and Dental
Associations (CMDA), and the Catholic Medical Association (CMA) file this response.
In 42 U.S.C. 300a-6, Congress directed that no Title X funds "shall be used in
programs where abortion is a method of family planning." To enforce that mandate,
the 2019 Rules bar Title X providers from referring and advocating for abortions.
Compliance with Statutory Program Integrity Requirements, 84 Fed. Reg. 7714, 7717
(Mar. 4, 2019). Yet HHS's proposed rule requires that grantees provide abortion
referrals and counseling, and the rule treats abortion as "appropriate medical care"
and a method of family planning in violation of Title X. Ensuring Access to Equitable,
Affordable, Client-Centered, Quality Family Planning Services, 86 Fed. Reg. 19812,
19817 (Apr. 15, 2021). HHS gives policy reasons for the proposed rule. 86 Fed. Reg.
at 19815-16. But "no amount of policy-talk can overcome [Title X's] plain statutory
command." Niz-Chavezv. Garland,_ S. Ct._, No. 19-863, 2021 WL 1676619, at *9
(Apr. 29, 2021).
The Acting Solicitor General's brief illustrates the United States' abandonment
of the 2019 Rules-and Title X's text-in three ways. First, the government presents
the 2019 Rules as a dead letter and defending them as a waste. Acting S.G.'s Letter

15100 N. 90th Street, Scottsdale, AZ 85260

Phone: 480.444.0020

Fax: 430.444.0028

ADFlegal.org

Br. ("S.G.Br.") 1 (HHS expects to "issue any resulting final rule by early fall"); id. at
2 ("Given that HHS proposes to replace the 2019 rule and expects to finalize any new
rule by early fall-before this Court would decide these cases .... ");id.at 3 ("If HHS
finalizes a new rule, all existing grant recipients would then become subject to that
rule."). The United States essentially argues that any defense of the 2019 Rules would
be futile because they will soon be gone. But HHS's proposed rule conflicts with the
statutory text and will likely be enjoined and tied up in courts for years, during which
time the 2019 Rules will remain in effect. The United States' abandonment of those
Rules now is premature.
Second, the United States plans no effectual measures to enforce the 2019
Rules. The government says that Title X recipients are still bound by the Rules on
paper, and HHS's normal enforcement mechanisms remain available. S.G.Br.2-3.
But audits, site visits, and Office of Inspector General investigations take resources,
and HHS pledges no resources to enforce the Rules it is committed to overturning.
Third, the United States makes clear that it will offer no substantive defense
when the 2019 Rules are inevitably challenged outside Maryland. The government
commits only to procedural maneuvers and delay tactics that are unlikely to succeed.
S.G.Br.3. The United States obliquely suggests that Title X litigation might be barred
by laches. Ibid. Yet it fails to explain what "harm[]" or "prejudice" from delay the
government could possibly assert, Nat'J R.R. Passenger Corp. v. Morgan, 536 U.S.
101, 121-22 (2002), especially when it intends to scuttle the 2019 Rules. The United
States also alludes to making use of standing or jurisdictional defects, S.G.Br.3,
though those requirements have posed no challenge to litigation, as the Fourth and
Ninth Circuit litigation illustrates. The government also promises to seek an
abeyance until its proposed rule is finalized. Ibid. But the United States gives no basis
for such an abeyance, nor is a district court likely to grant one when the government
shares the plaintiffs' goal of replacing the 2019 Rules at the earliest opportunity.
Last, the United States posits no "sound basis ... to rapidly adjudicate" a Fourth
Circuit lawsuit outside Maryland, ibid., even though a plaintiff in Virginia or West
Virginia could file a complaint and motion for preliminary injunction and obtain a
ruling based on the Fourth Circuit's controlling en bane decision in a matter of
weeks-adversely affecting proposed intervenors' members in those States.
Most telling is what the Acting Solicitor General does not say. The United
States gives no assurance that it will defend the 2019 Rules on the merits-which is
evidence that it won't. AAPLOG, CMDA, and CMA have no comfort that the federal
government will defend their interests. Every indication of the United States' brief
is that-on the merits-the government will not even try, because the executive
branch is committed to circumventing through regulation what Congress demanded
in 42 U.S.C. 300a-6.
2

The Court should not dismiss this case; it should hear and decide it on the
merits. First, the government has not provided reasonable assurance to AAPLOG,
CMDA, CMA, and their members that the United States will defend a challenge to
the 2019 Rules while the 2021 proposed rule is being processed or litigated. And even
if the United States was willing to defend, it would do no good. AAPLOG has
physician members who currently provide prenatal and other medical care at Title X
clinics in Virginia and West Virginia and benefit from the 2019 Rules' conscience
protections. AAPLOG Reply in Support oflntervention 5-6 and Addendum A thereto.
When a plaintiff inevitably files suit and moves to enjoin the 2019 Rules in those
states, a district court will be required to grant the motion under the Fourth Circuit's
en bane opinion. Only this Court's ruling can prevent that imminent harm.
Second, AAPLOG, CMDA, and CMA have members across the country who
currently benefit from the 2019 Rules' conscience protections. When one of those
members' employers violates the 2019 Rules, the United States has offered no
adequate assurance that it will enforce the 2019 Rules against that employer. Again,
only an opinion reversing the Fourth Circuit can avert that impending injury.
Third, HHS commonly cites judicial decisions as sustaining its "reasoned
analysis" for a new rule, DHS v. Regents of the Univ. of Cal., 140 S. Ct. 1891, 1913
(2020), or "satisfactory explanation" for a regulatory change, Little Sisters of the Poor
Saints Peter & Paul Home v. Pennsylvania, 140 S. Ct. 2367, 2383 (2020) (quotation
omitted). When AAPLOG, CMDA, CMA, and others submit comments to HHS
supporting retention of the 2019 Rules' conscience protections, the agency will
doubtless reject their concerns based on the Fourth Circuit erroneous ruling. And the
United States will use the Fourth Circuit's flawed opinion to defend against the legal
challenges to the proposed rule that Intervenors and others will file. Only a ruling
from this Court can avoid those tangible harms.
Finally, since Rust v. Sullivan, 500 U.S. 173 (1991), Title X recipients have
successfully thwarted 42 U.S.C. 300a-6 by persuading sympathetic administrations
to issue rules that circumvent the statute and by tying up in court regulations like
the 2019 Rules that enforce the statutory mandate. This pattern will continue unless
this Court upholds the 2019 Rules, clearing the way for future administrations to
promulgate similar rules without seeing those rules enjoined by lower courts while
this Court is continually sidelined by changes in the administration.
Because the medical associations meet all relevant requirements, the Court
should grant their motion to intervene. To the extent there are timing concerns
despite the prospect oflengthy litigation over the proposed rule, the Court could hear
this case before the October 2021 Term, e.g., Citizens United v. Federal Election
Comm'n, No. 08-205 (argued Sept. 9, 2009), and issue a decision promptly thereafter.
3

Counsel of Record

cc: Attached service list

4

20-429
American Medical Association, et al. v. Becerra, et al.
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
Benjamin M. Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
17th Floor
Columbus, OH 43215
bflowers@ohioattorneygeneral.gov
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
barbara.underwood@ag.ny.gov
Paul Reinherz Quitman Wolfson
Wilmer Cutler Pickering Hale and Dorr, LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
paul.wolfson@wilmerhale.com
Andrew Timothy Tutt
Arnold & Porter Kaye Scholer
601 Massachusetts Avenue, NW
Washington, DC 20001
an drew. tutt@arnoldporter.com
Noah Guzzo Purcell
Solicitor General
1125 Washington Street SE
P.O. Box 40100
Olympia, WA 98504-0100
noah.purcell@atg.wa.gov
5

20-454
Becerra, et al. v. Mayor and City Council of Baltimore
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov
Andrew Timothy Tutt
Drew A. Harker
Arnold & Porter Kaye Scholer
601 Massachusetts Avenue, NW
Washington, DC 20001
an drew. tutt@arnoldporter.com
drew .harker@arnoldporter.com
Dana Petersen Moore
Suzanne Sangree
Baltimore City Law Department
Office of Legal Affairs
Room 156
100 N. Holliday Street
Baltimore, MD 21212
law .danapmoore@bal timoreci ty.gov
Suzanne.sangree2@bal timoreci ty .gov
Priscilla Joyce Smith
Yale Law School Information Society Project
219 Sterling Place
Brooklyn, NY 11238
priscilla.smith@yale.edu
Faren M. Tang
Yale Law School
127 Wall Street
New Haven, CT 06511
faren.tang@ylsclinics.org

6

Stephanie Toti
Lawyering Project
25 Broadway
9th Floor
New York, NY 10004
stoti@lawyeringproject.org

7

20-539
Oregon, et al. v. Becerra, et al.
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
barbara.underwood@ag.ny.gov

8

